DOCKET NO.

IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2021

 

BRANDON JOSHUA BAILEY
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

 

CERTIFICATE OF SERVICE

The petitioner, BRANDON JOSHUA BAILEY, MOVES THIS Court for
leave to proceed in forma pauperis, and in support of this request, shows as
follows:

1. Pursuant to Rule 39.1, a party seeking to proceed in forma pauperis must
file with this motion a notarized affidavit in support or, if the court below
appointed counsel for an indigent party, a copy of the order of the lower court’s
order of appointment. Attached is a copy of the order of Florida’s First District
Court of Appeal declaring Petitioner insolvent and appointing the Public

Defender’s Office as counsel for his appeal.
2. Petitioner was adjudged insolvent for the purposes of appeal in the First
District Court of Appeal for the State of Florida and was represented there by
appointed counsel. Petitioner was also adjudged insolvent for his trial in the
Fourth Judicial Circuit Court of Florida and was represented there by appointed
counsel.

WHEREFORE, Petitioner respectfully requests that he be permitted to
proceed in forma pauperis in this matter.

CERTIFICATE OF SERVICE

I, Glen P. Gifford, a member of the bar of this Court, hereby certify that on
this day of September 13, 2021, a copy of this motion was served, via electronic
transmission, by agreement of the parties, to Trisha Meggs Pate, Assistant
Attorney General, counsel for Respondent, at crimapptlh@myfloridalegal.com,

and that all parties required to be served have been served.

R

GLEN P. Tees /

Assistant Public Defender

Bar Number

Leon County Courthouse

301 S. Monroe St., Suite 401
Tallahassee, Florida 32301
850-606-8500

Counsel of Record for Petitioner
victor.holder@flpd2.com
RECEIVED, 10/24/2018 1:09 PM, Kristina Samuels, First District Court of Appeal

IN THE CIRCUIT COURT, FOURTH
JUDICIAL CIRCUIT, IN AND FOR
DUVAL COUNTY, FLORIDA

casENO._lld- Zoile -RF- FRI7-AxxX-M

STATE OF FLORIDA " prvision; —C@-@

Branden Joshua. Aailery

ORDER

 

This cause came on to be heard upon application of the above named defendant(s) for an Order adjudging
said defendant(s) insolvent for the purpose of appealing this cause and procuring the transcript of records and
proceedings of trial in order to perfect an appeal in this cause, and requesting the Court to appoint counsel
to represent said defendant(s) in the appeal: it is, upon consideration thereof,

ORDERED AND ADJUDGED that the above named defendants(s) be adjudged insolvent for the purpose
of perfecting an appeal and the official Court Reporter of this Court is hereby instructed to prepare such papers

necessary in order for said defendant(s) to perfect an appeal and all costs thereof are hereby taxed against the
State of Florida and it is further,

ORDERED AND ADJUDGED that the Office of the Public Defender in and for the Fourth Judicial Circuit
of Florida is hereby appointed to represent said defendant(s) in the appeal.

DONE AND ORDERED at Jacksonville, Duval County, Florida, this 21 day ot Door.
ap, ZAS

 

RONNIE FUSSELL
CLERK OF THE CIRCUIT COURT

 
